HHS/OIG, Audit -"Review of Illinois Medicaid School-Based Services for the Period July 1, 2000 through June 30, 2001,"(A-05-02-00049)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Illinois Medicaid School-Based Services for the Period July
1, 2000 through June 30, 2001," (A-05-02-00049)
December 31, 2003
Complete
Text of Report is available in PDF format (514 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report estimates, based on a statistical sample, that the Illinois Department of Public Aid (IDPA) claimed
at least $6.1 million (Federal share) in payments for school-based services provided by local education agencies (LEAs)
during the year ending June 30, 2001 that did not qualify for Medicaid reimbursement.  At the LEAs we found that the
services were not always included in the students Individual Education Plans as required.  Also, the LEAs did not
always document the provision of the services or the referral for the services, and claimed reimbursement for some services
when school was not in session or the students were absent.  Further, the IDPA had not fully implemented a systems
edit that would have limited reimbursement for school-based services to the lower of the billed amount or the statewide
ceiling.  In addition to recommendations to correct procedural weaknesses, we recommended a financial adjustment for
the $6.1 million.